Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 COST-EFFECTIVENESS OF SAVE
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secreta~ of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES
The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS
The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs. This report was prepared in the Kansas City
Regional Office under the direction of James H. Wolf, Regional Inspector General. Project
staff included:

REGION                                        HEADQUARTERS

Hugh Owens, Project Leader                    Alan S. Levine, Program Specialist

Jennifer E. Collins, Program Analyst          Barbara R. Tedesco, Mathematical Statistician

Perry A. Seaton, Program Analyst

Dennis E. Samworth, OAS,

  Statistical Specialist


For additional copies of this report, please contact the Kansas City Regional Office at
(816) 426-3697.
Depatiment 01 JIGZW~~-    ____
        OFFICE OF

   INSPECTOR GENERAL





   COST-EFFECTIVENESS OF SAVE




              @ ~f+
                 ‘ERVICES
                   O*
                    =? JUNE
              +
              w              GIBBS BROWN
            ;          Inspector  General
            ~
            s
             %e+
               ++
                 $        NOW~ER    1995
              >
              %’dla         OEI-07-91-01230
              EXECUTIVE                           SUMMARY


PURPOSE

To determine if the Systematic Alien Verification for Entitlements (SAVE) is
cost-effective in verifying the immigration status of aliens applying for Aid to Families
with Dependent Children (AFDC) and Medicaid.

BACKGROUND

The Immigration Reform and Control Act of 1986 (Public Law 99-603) established the
SAVE program. SAVE is designed to assist eligibility workers in preventing illegal
aliens (noncitizens who are in the United States illegally or by reason of their
immigration status) from receiving federally subsidized cash and medical benefits.
However, this legislation permits States to request a waiver if they can demonstrate
that either SAVE is not cost-effective for them or their alternative verification system
is as effective.

The Administration for Children and Families (ACF) requested this study. According
to ACF, very few guidelines or criteria must be met to be granted a waiver. Since the
inception of SAVE, nine States have been granted either full or partial waivers by
ACF and the Health Care Financing Administration (HCFA). As part of our analysis,
we reviewed these waiver requests.

We selected statistically valid samples of case files that had been matched between the
Immigration and Naturalization Service (INS) and States’ records. We then did a case
file review in the four sample States (California, Florida, Illinois, and Texas) on those
records the States were able to locate. These States represented almost 70 percent of
the estimated 2.06 million undocumented alien population in the 1980 census, which
was the last year aliens were identified in the survey. The Census Bureau estimates
this population was between 3.5 and 4.0 million in 1994. In addition, we interviewed
States’ staff on how they use SAVE and reviewed their SAVE procedures and
administrative costs. A companion report “Rew”ewof the SAVE SJWenz’sPKXXWS”
(OEI-07-91-01231) addresses deficiencies in INS and States’ systems.

FINDINGS

We Are Unable To Determine The Cost-Effectiveness Of The SAVE Program.

   .	   The INS could not isolate those records that apply only to the AFDC and
        Medicaid alien populations.

   .    States could not locate all sample beneficiary case files.

   �	   Case file documentation was not adequate to determine if SAVE was
        instrumental in States’ determination of eligibility based upon immigration
        status.



                                              i
  .	   States lack consistency andcompleteness     indocumenting    SAVE administrative
       costs.

However, the SAVE Program Has Value in Identifying Ineligible Aliens.

  .    Cost avoidance cases were identified in each State.

  �	   SAVE assisted eligibility workers not trained in reviewing INS documents as
       review of documents is required to determine the alien’s immigration status.
       Further, eligibility workers cannot establish the authenticity of all documents
       without INS verification.

  .	   State and county officials cited deterrence as a factor in illegal aliens not
       applying for benefits. However, it was difficult to determine the overall
       deterrent effect of SAVE.

GUIDELINES FOR EVALUATING WAIVER REQUESTS

Based on the data we found and the results of our review, we cannot complete
a cost benefit analysis and believe that until INS and States address weaknesses  in the
systems, such a cost benefit analysis will not be possible. (See companion report
“Review of the SAVE System’s Processes” which addresses the system’s weaknesses
and recommendations    for improvements.)     In the meantime we believe there may be
more requests from States to obtain waivers. Based on our review, we believe there
are a number of areas ACF and HCFA should be especially attentive to in reviewing
those waivers,

       Completeness of Systems

       Review each State’s plan to ensure that the proposed alternative covers all
       steps of the process, including verification of involvement with INS for at least
       the secondary verification process, and the hearings and appeals process.

       l+hnary Verification

       If the SAVE primary verification process is eliminated, review the individual
       State’s plan for reviewing and verifying alien documentation and staff changes
       to accomplish this objective.

       Documentation Suppo&g      the State-k Estbnated Savings

       Review each State’s definition of savings, how calculated, and method of
       projecting these savings.

       Costs of Adminktetig   the SAVE and Alternative Systems

       Assure that agency instructions are followed in documenting SAVE (and
       alternative systems) administrative costs.




                                             ii
AGENCY COMMENTS AND OIG RESPONSE

The ACF commented that they hoped the OIG could have provided a more definitive
response concerning the cost-effectiveness of SAVE. They recognized, however, that
this was not possible because of the reasons stated in the report.

The INS did not provide written comments to the report, but verbally indicated
concurrence with the findings and recommendations.

The ACF’S comments in their entirety are included in Appendix C.




                                          111
                       TABLE                    OF CONTENTS


                                                                                                                   PAGE


EXECUTIVE SUMMARY


INTRODU(XION,                .............           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



FINDINGS          ...................                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   5


    �   Cost-Effectiveness     of SAVE . . . .       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   5


    � The Value of SAVE            .........         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   8


GUIDELINES FOR EVALUATING WAIVER                                    REQUESIS             . . . . . . . . . . . . . . ..11


APPENDICES


A
 Criteria Usedin           Selecting the Four Sample States
                . . . . . . . . . . . . . . . . . . . .   A-1

B:
 Methodology Used to Calculate Cost Avoidance                          .
 . . . . . . . . . . . . . . . . . . . . . B-1

c       Agency Comments         . . . . . . . . . . . . . . . . . . . . . . .
 . . . . . . . . . . . . . . . . . . . . . c-1
                          INTRODUCTION


PURPOSE

To determine if the Systematic Alien Verification for Entitlements (SAVE) system is
cost-effective in verifying the immigration status of aliens applying for Aid to Families
with Dependent Children (AFDC) and Medicaid.

BACKGROUND

The Immigration Reform and Control Act of 1986 (Public Law 99-603), hereafter

referred to as the Act, provides for the establishment and implementation of a

cost-effective system to verify the status of aliens applying for federally funded

benefits. The SAVE system is designed to assist eligibility workers in preventing illegal

aliens (noncitizens who are in the United States illegally or by reason of their

immigration status) from receiving federally subsidized cash and medical benefits. The

Immigration and Naturalization Service (INS) administers SAVE as an information

service for States and does not make determinations on any alien’s eligibility for a

specific federal benefit. The Act mandates the following programs use SAVE in

verifying alien documentation: Food Stamp Program; Housing Assistance Programs;

Unemployment Compensation; Title IV Educational Assistance; AFDC; the Medicaid

Program; and certain Territorial Assistance Programs.


Federal Regulations, 45 CFR 233.50, speci~ that to be eligible for federal cash or

medical assistance an individual must be a United States citizen, an alien lawfully

admitted for permanent residence, or an alien otherwise permanently residing in the

U.S. under color of law (PRUCOL). PRUCOL refers to aliens residing in the U.S.

whose presence is known and tolerated by authorities, although they have not become

permanent resident aliens.


The Martin Marietta Corporation contracts with INS to store and provide electronic

access to the SAVE Alien Status Verification Index, a data base containing more than

28 million records representing aliens. When an alien applies for the federally funded

programs listed above, an eligibility worker is required to verify the alien’s status by

initially querying the automated SAVE system (primary verification). This process is

used to authenticate the alien registration number listed on the applicant’s

immigration documents. When accessed by the user through a touch-tone or

computerized system, the INS, through the Alien Status Verification Index, will

respond within three to five seconds of the query providing the alien’s status.


If the INS is unable to establish the alien’s immigration status, an “Institute Secondary

Verification” message is sent to the State. Also, if there is missing information or a

problem is identified on INS’s data base, then an “Institute” message is sent to the

State. These messages can indicate a potential problem in the identification of alien

immigration status which may signify that the alien is ineligible to receive benefits.

The eligibility worker is then required to send copies of immigration documents and a

Document Verification Request (Form G-845) to an INS District Office for manual
review of the immigration status (secondary verification). The INS staff examines the

document and conducts automated and manual validation searches to determine the

immigration status of the alien. The INS procedures indicate that it will respond to

the submitting agency within 10 working days. Results from the primary and

secondary verifications are used by eligibility workers to determine whether an alien is

eligible to receive benefits.


The INS maintains records of disclosure on all alien registration numbers checked

through the SAVE data base. The INS maintains and discloses these records in

accordance with the Privacy Act and the Freedom of Information Act.


The INS issued a public notice in the Federal Register in September 1987 (amended

in February 1989) concerning INS procedures for verifying an alien’s immigration

status for various federal benefit programs. This notice also stated that each

overseeing agency, which is the Department of Health and Human Services (HHS) for

AFDC and Medicaid, must develop its own regulations. Due to disagreement between

ACF and the Health Care Financing Administration (HCFA), regulations were never

issued. In lieu of regulations, ACF and HCFA are using the statute and guideline

instructions to the States to administer the SAVE program.


INS hjected    Savings Due to SAK?Z

The INS operating instructions to the States (September 1989) estimated that between
$2.5 and $3 billion in claims from unentitled aliens could be avoided each year as a
result of SAVE. While INS maintains projected savings provided by the States, this
information is not published since States use various definitions of cost avoidance.

HHSl~e        of Impector General(OIG) and Depa*ent      of AgricultureOIG Studies

A study conducted by the HHS/OIG, “Alien Verification for Entitlements”, February
1988 (OAI-86-02-OOO03) and a Department of Agriculture OIG study,
“Cost-Effectiveness of the Food Stamp Program”, September 1992 (Audit No. 27013-
47-Te) found that State officials believed SAVE was not cost-effective. In both studies
conclusions were largely based on perceptions, however, and actual case files were not
reviewed to determine savings that could be identified to SAVE.

Waiver Requests

While all States, the District of Columbia, and territories are required by the Act to
participate in SAVE for the AFDC and Medicaid programs, section 121(c)(4)(B) of
the Act permits a State to apply for a waiver if it can demonstrate that the costs of
administering SAVE exceed estimated savings. The Secretary of HHS may also grant
a waiver if the State has an alternative, equally effective, and timely system for
verification of immigration status with comparable hearing and appeal rights as those
provided under the Act. Nine States have been granted full or partial waivers (See
Table 1 on the following page.) However, other than the statutory requirements,
there are very few requirements or guidelines that must be met for a State to be
granted a waiver.


                                           2

 STATES                                                   PARTIAL            DATE
                                                                            WAIVER
                                                                           APPROVED
 California
                           I              ~     X2        I
     08-30-94
 District of Columbia
                 I              I X3            I      11-07-91
 Hawaii
                               lx             I
              I      11-23-93
 Maine
                                1X1                            I      12-28-94
 Michigan
                             1X1                            I      03-04-92
 Minnesota
                            I        x     I               I      08-11-92
 Washington
                                    x                            11-04-93
                                       1             I                1
 Mississippi
                                               x              Not Available
                                       I             I                I

 Montana
                                                   x                 04-10-90




Partial waivers can also be granted to States whose small volume of SAVE primary
queries would not make it [ost-effective. In this case, States bypass the primary query
and all contacts with INS are for secondary verifications.      --

New York State has previously sought a waiver from HHS based         on the results of the
Department of Agriculture’s OIG study. The HHS did not grant         a waiver based on
that study because the State had not furnished information which     showed SAVE was
not cost-effective or that the State had an alternate system which   was as effective and
timely as SAVE.

METHODOI_XIGY

We selected a purposive sample of four States for review (California, Florida, Illinois,
and Texas). For details on how we selected the sample, see Appendix A. These
States represent almost 70 percent of the estimated 2.06 million undocumented alien
population in the 1980 census, which was the last year aliens were identified in the
survey. The Census Bureau estimates this population was between 3.5 and 4.0 million


                                            3
in 1994. We also obtained SAVE program administrative costs for AFDC and
Medicaid in Fiscal Year (FY) 1992, and the volume of primary verifications and
secondary referrals. The sample States rank above other States in one or more
categories of undocumented aliens, costs, and verification activity.

We requested INS to provide all record information on their SAVE data base with an
“Institute Secondary Verification” message during the study period (September 1
through November 30, 1993) for aliens who applied for AFDC and Medicaid benefits.
From these records, we selected a statistically valid sample and requested each State
to match them against their records. Since California is county-administered, we
selected a statistically valid sample of six counties based on the volume of queries to
the SAVE system during our study period. The sample counties selected were Fresno,
Los Angeles, Orange, Riverside, San Bernardino, and San Francisco. Alien records
were then selected from each county.

We reviewed the case file documentation to determine if SAVE identified aliens who
were not eligible for benefits. We also discussed SAVE program policy and operation,
financial information, and case files with 75 State and county staff in the four sample
States. Staff at the State level included program supervisors and analysts, systems and
fiscal analysts, eligibility specialists, finance and accounting managers, field operations
staff, quality control program managers, budget analysts, and program policy
specialists. County staff included program managers and analysts, social service
program managers, program specialists, an auditing chief, a quality review supervisor,
and a program coordinator.

We conducted our review in accordance with the QuaZ@ Standardsfor Impactions
issued by the President’s Council on Integrity and Efficiency.




                                             4�
                                   FINDINGS


WE ARE UNABLE         TO DETERMINE THE COST-EFFECHVENESS                      OF THE
SAVE PROGRAM.

We could not determine the estimated savings generated by SAVE for the following
reasons:

  .    % INS could not isolhte those recordk that apply only to the AFDC and
       Medicaid alien populiulons.

       We had requested that INS furnish us records only for AFDC and Medicaid
       applicants. However, we received a large number of Food Stamp records as
       part of this request.

  �    States could not locate all sample benejiciq    case jik.

       Of the 935 cases in our sample, States could locate only 698 (75 percent) of the
       sample,

       As noted in our companion report “Revzkw of the SXK!3 system% Bocesses”
       (OEI-07-91-01231), States were unable to consistently match and locate sample
       cases when an “Institute Secondary Verification” message was sent by INS.
       States had insufficient data available to reconcile their files with INS’s data files
       as a result of inconsistent methods of designing and storing data information in
       their computer systems. States also lack sufficient matching points within their
       data records to identify alien case files in matches with the INS/SAVE data
       base.

       Out of the 698 case     files that the States did locate, we had to eliminate 430
       cases, or 46 percent    of the sample, because they were not AFDC or Medicaid
       eligible cases, which   left us with just 29 percent of the cases (268) from which
       to identify potential   cost savings cases.

       Table 2 on the following page provides a breakdown of the sample and details
       the various categories where it was necessary to exclude cases.

  �	   Casejiled ocumentation was not adequate to determine if MlL?? was instrumental
       in States’ determination of eiljjbility based upon immigration status.

       Of the 268 cases reviewed, in most instances we were unable to determine if
       SAVE was instrumental in the decision made by the State or county regarding
       immigration status due to lack of documentation in the case files.




                                              5�
                                                  Table 2




     Original number in samde                        I    335   I   200 I 200‘    I 200 I       935
     Less Cases not found                                 69        20       47       101       237
                                                     I          I        I        I         I
     Less Denied - alien had too much income or
     resources or failed to cooperate                     26        37       10       25        98
     Less Food Stamps                                13212110                     \45198
     Less Emergency Restricted 2                          53        15       29       3         100
                                                     1          1        1        1         I
     Less Refugee Cases                                   20        19       0        0         39
                                                                I        I        I         ,
     Less Reference Only 2- payment on
     another case, but used as reference to the
     file                                                 27        25       1        1         54
     Less Cases not in Study Period                  151181012125
     Less U.S. Citizens 2                            I      3   I   o    I   o    I   2     I    5




     Medicaid Only                                        42        22       59       7         130




      .    Stateslizckconsistency and completeness ih documenting &lKE admiruktrative
           costs.

           Both ACF and HCFA have issued instructions to the States as to the types of
           SAVE activities that qualify for Federal reimbursement.1 (Effective April 1,
           1994 the 100 percent reimbursement for AFDC was reduced to 50 percent.2
           Medicaid reimbursement remains at 100 percent.) In addition to direct costs,
           indirect costs must be documented through the use of an approved cost
           allocation method.
1	
      AFDC Instructions: FSA-IM-87-16, November 3, 1987, and FSA-AT-91-22,
      July 22, 1991, and HCFA Instructions: Program Memorandum - Medicaid State
      Agencies, December 1987.
2
      Budget Reconciliation Act of 1993 (Public Law 103-66).


                                                     6�
We found that States lack uniformity in the manner in which they document SAVE
administrative costs.

California uses a cost allocation plan to designate costs for SAVE. Each county
applies a time study to identify costs applicable to SAVE. Although staff from the
State told us that all counties use SAVE, not all of them specifically report these costs.
They also stated that one county’s costs are greatly understated because of their use of
time study methods to report costs. A State official told us, “We only claim these costs
even though we know that actual SAVE costs are higher.”

Florida includes salaries as direct costs, identified through random moment sampling.
These costs are allocated between the various programs served by these workers.
Indirect costs are allocated to SAVE through an allocation formula used by the State.

Illinois reported only contract costs for telecommunication   services. No personnel
expenses are included in these administrative costs.

Texas uses random moment sampling time studies to determine allocable costs to
SAVE and other programs administered by its Department of Human Services. Most
of the costs are allocated for the time that eligibility workers spend on SAVE since
they are the biggest users of the system. Once the time has been identified, costs are
allocated on the basis of object codes which identi@ the cost categories. Costs include
such items as salaries, travel, building rental and upkeep, telephones, professional
services, lease/purchase of furniture and equipment, supplies, computer software and
equipment, and employee benefits.

Table 3 shows the documented SAVE administrative costs for both the AFDC and
Medicaid programs for each of the four States for our study period.

                                         Table 3




           II       California                   I                 $1,258,664 II
           II       Florida                      I                     41.405 II
           II       Illinois                     I                        488 II

           II       Texas                        I                   214,973 II

For FY 1993, 29 States documented AFDC/SAVE administrative costs and 17 States
documented Medicaid/SAVE administrative costs. Documented administrative costs
included $1,771,101 for AFDC/SAVE and $7,337,334 for Medicaid/SAVE for a total
of $9,108,435.




                                            7�
HOWEVER THE SAVE PROGRAM HAS VALUE IN IDENTIFYING
INELIGIBLE ALIENS

our case file reviews and discussions with State and county officials indicated that the
use of SAVE has value for accurately processing AFDC and Medicaid cases. Specific
benefits include:

  �     Cost avokkmcecases were iden@kd in each State.

        Cost avoidance is defined, for the purpose of this inspection, as program funds
        saved during the period of time an ineligible alien could have received benefits.

        Based on this definition, 11 sample cases were identified out of 268 case files;
        SAVE permitted States to determine seven cases were illegal aliens filing for
        benefits, with an additional four cases recognized when they completed the
        process of developing the cases at our request. These cases resulted in benefit
        savings of $56,199 for 5 AFDC cases and 6 Medicaid cases. Table 4 identifies
        the 11 cost avoidance cases for ineligible aliens who applied for AFDC or
        Medicaid benefits.

        The INS instructions require that a secondary verification be completed prior to
        the delay, denial, reduction, or termination of a benefit to any alien applicant
        for reasons of immigration status. Therefore, we did not include cost savings
        unless a secondary verification had been completed. In some instances the
        States had not followed this procedure so we asked them to request a
        secondary verification in all instances where it appeared payment of benefits
        was questionable.

        Appendix B gives the methodology used to calculate savings.




   FR
          1         1
                             x
                                        1
                                             $3,361
                                                      1
                                                            Counterfeit document
                                                                                            I
bRllx                                   I     3.361   I     Counterfeit document            II
   RI         x                              13,150           Expired document
   SF                        x                3,361           Expired document
 Totak I      1              3              $23,233

 1 CA Countiwx FR = Fresno       RI = Riverside    SF = San Francisco




                                             8�
                                      x              $1,924          Expired document
                   x                                  4,173         Counterfeit document
    Total:           1                1              $6,097
k
                              ILLINOIS CASES REVIEWED             = 112
               / AFDc        M131XC!AID            SAVINGS                ERROR




                   x                                 $8,941          Expired document
               1         1
I              1X1                                    8.941     ExDired & Altered Document
                                      x               1,087          Expired document
Total:               2                1             $18,%9

Grand

Total:               5                6             $56,199


     �       SAVE asskted eli’ility       woken not trained in reviewing INS documenk%

             In all four States the majority of staff who we interviewed in AFDC and
             Medicaid commented on the utility or intangible benefits of using SAVE.

             In California, staff said that “SAVE is useful in detecting altered, forged
             documents. It is a security device to validate documents.”

             Staff in Florida stated that “SAVE is better than the prior process of verifying
             documents to INS.”

             Illinois staff responded that “SAVE identifies (alien) registration cards that
             were fake before the case went to pay. Prior to SAVE the case went to pay
             before the card could be authenticated.”




                                                     9�
    In Texas staff told us that “SAVE provides a certain amount of protection, by
    using INS on all queries. Things have changed since 1988 (when SAVE was
    implemented). Now there are more cards; it is more complicated now.”

�   Detemmce a Factor in Aliens Not App&ng for Benejik

    our review identified two cases in which aliens voluntarily revealed that their
    alien documents (Resident Alien Cards) were forgeries when the eligibility
    workers queried SAVE. One official stated that SAVE is criticized as being
    ineffective because few if any misrepresentations are found through this
    process. To the contrary, the official believes that such an outcome proves that
    SAVE works as a deterrent and that eliminating SAVE would be like “a person
    saying they are going to stop locking their home as no one has ever tried to get
    in.”

    States generally responded that deterrence cannot be accurately determined
    because aliens do not volunteer this information. Three of the four States also
    noted that it is difficult to determine because of the number of illegal aliens
    who are entitled to emergency restricted Medicaid benefits.




                                       10

                       GUIDELINES FOR EVALUATING
                            WAIVER REQUESTS
Based on the data we found and the results of our review, we cannot complete
a cost benefit analysis and believe that until INS and States address weaknesses in the
systems, such a cost benefit analysis will not be possible. (See companion report
“Review of the SAVE System’s Processes” which addresses the system’s weaknesses
and recommendations for improvements.) In the meantime, we believe there may be
more requests from States to obtain waivers. In our review, we came across a number
of areas we believe ACF and HCFA should be aware of in reviewing those waivers.
Instead of making recommendations, we offer the following guidelines.

These guidelines address the major factors of cost-effectiveness and efficiency of
SAVE and the States’ alternative system. These guidelines cover:

Completeness of Systems

The ACF and HCFA should review the description of each State’s proposal of an
alternative system to SAVE to ensure that it includes every element essential to its
success. The waiver request must detail how the State plans to verify alien status, and
its involvement with INS through at least the secondary verification and hearings and
appeals processes.

primary Verification

The State may not have considered all areas when submitting a proposal for an
alternative to SAVE. The ACF and HCFA should review the proposal to determine:

      If the SAVE automated primary verification process is replaced, what process

      will then exist? Will the alternative system be equally effective?


      If the SAVE primary verification process is eliminated, will every alien

      applicant have to be processed through the relatively costly and time consuming

      secondary verification process?


      Will the State need to decrease or increase staff? This should be fully

      explained.


      Will identification of counterfeit and forged documents be less effective?     How

      will staff identi@ these documents?


      Will eligibility workers spend more time reviewing INS documents and the

      codes used to determine the alien’s immigration status?





                                           11

Documentation Supporting the State’s Estimated Savings

The State should present documentation showing benefit payment savings. This
material should be reviewed carefully to determine how the estimated savings were
calculated. This review should include:

  ��   Assuring that the estimated savings are counted for Medicaid as well as for
       AFDC when a savings amount is submitted by the State. If beneficiaries are
       eligible for AFDC, they would also be eligible for Medicaid.

  ��   Reviewing the definition used by the State to determine what should be
       included as savings. Is the State counting savings that are based on submitted
       documentation only (at the time the primary verification is made) without
       submitting these documents for review through the INS district office and the
       secondary verification process?

  ��   Assuring that the State is only counting savings due to alien immigration status,
       and not for denial because of excess income and resources or failure to
       cooperate.

  ��   Reviewing the methodology the State presents to estimate projected savings.
       Determine if the State us~d a statistic~lly valid sample, how the projection-was
       calculated, and the resulting confidence level of the reported savings.

Costs of Administering the SAVE and Alternative Systems

The State should submit full documentation     that shows SAVE administrative
expenditures.

  �    Assure that the time period over which the costs are being reported matches
       the same time period over which estimated savings have been identified.

  ��   Determine if SAVE administrative costs include staff direct and indirect costs,
       and that agency instructions were followed in determining whether only SAVE
       authorized expenditures are being documented.

  ��   If the State presents administrative costs beyond that being reported as claimed
       for AFDC and Medicaid reimbursement, review the cost data to determine how
       the State arrived at these cost figures.




                                             12

AGENCY COMMENTS AND OIG RESPONSE

The ACF commented that they hoped the OIG could have provided a more definitive
response concerning the cost-effectiveness of SAVE. They recognized, however, that
this was not possible because of the reasons stated in the report.

The INS did not provide written comments to the report, but verbally indicated
concurrence with the findings and recommendations.

The ACF’S comments in their entirety are included in Appendix C.




                                         13

                                 APPENDIX                          A

            CRHZRIA
                 USED            IN SELECTING THE FOUR SAMPLE STATES

U.umented           alkm population in the 1980 census (in millions)

         California                       1,024	                    50 percent (rounded)
         Florida                             80                     04   1,



         Illinois                           136                     07   “
         Texas                              186                     og   II



         Total                            1,426                     70   ,,




         National                        2,057                     100   “




Adrnihistrative
              COSB
                 for Al?DC and Medicaid in Fiscal Year 1992


                                 AFDC                 Medicaid                     Total     Percent
 California                  $1,234,098              $4,419,467               $5,653,565         93.0
 Florida                         24,312                    6,105                  30,417           .5
 Illinois                         7,903                   17,974                  25,877           .5
 Texas                           59,179                   84,911                 144,090          2.0
 Total                       $1,325,492              $4,528,457               $5,853,949           96


 National                    $1,467,424              $4,623,758               $6,091,182         100


Volume of Mrnary and Secondmy Verifications - October 1992- March 1993

                                                                                              Percent
                              Primary                Secondary                  Total      (rounded)
California                     354,185                    13,389              367,574              55
Florida                         41,060                    3,726                44,786                  7
Illinois                        33,577                      459                34,036                  5
Texas                          108,217                     1,475              109,692              16
Total                                                                                              83


National                                                                      666,316             100



                                                   A-1

                             APPENDIX                  B�

         METHODOLOGY USED TO CALCULA TE COST AVOIDANCE

States provided the following information needed to calculate savings. (The statute
provides that AFDC beneficiaries are also eligible for Medicaid benefits, as they are
considered categorically needy)

                                 AFDC/Medicaid     cases

         �   Average monthly AFDC benefit payment for individuals

         �   Average length of time an individual receives AFDC benefits

         �   Average monthly Medicaid payment for individuals

         �   Average length of time a Medicaid beneficiary receives coverage is the

                   same as AFDC

                         Medicaid onlv cases (medicallv needv)

         � Average monthly Medicaid payment for individuals

         . Average length of time an individual receives Medicaid only coverage


The methodology used to calculate cost avoidance savings is the same for the four
States. Savings are based on the average monthly benefit payment multiplied by the
number of months in the benefit period.




                                          B-1

APPENDIX        C

 AGENCY




          c-1
     -,* ,1*.*-** “c.
 .+
:’
:s
 8%  ‘4
   %(S,,m
                           DEPARTMENT C)FI-IEALTH& HUMAN SERVICES


                                                                             ADMINISTRATION FOR CHILDREN AND FAMILIES�
                                                                             Office of the Assistant Secretary, Suite 600�
                                                                             370 L’Enfant Promenade, S.W.�
                                                                             Washington, D.C. 20447�




                        DATE :          Aqgust 16,         1995

                        TO:	           June    Gibbs     Brown
                                       Inspector        General

                        FROM :	        Mary Jo Bane
                                       A~~is~ant ~ec~~ta>~~      ~--”-
                                         for Children and Families


                        SUBJECT :      Comments - OIG Report: ?~Reviewof the SAVE System and
                                       Processes.” OEI-07-91-01231



                        As requested,    we have reviewed   the subject Report   and founa that
                        from an overall    perspective,   we would have liked  the OIG review
                        to have resulted    in a more definitive answer to the question of

                        the Systematic Alien Verification for Entitlements (SAVE)

                        program’s      cost     effectiveness.    However,     we understand     why   this

                        was not           not only by virtue of the reasons described in

                                    possible,
                        the OIG Report, IfcostEffectiveness of SAVE~l (oEI-07-91-01230) ,

                        but also, under the approach the OIG used for conducting the

                        analysis.


                        Also , the Review and companion, Cost-Effectiveness Reports find

                        fault with the way both the Immigration and Naturalization

                        Service (INS) and the States operate and use the SAVE program.

                        However, the tone of the reports and the study recommendations

                        appear to put much of the onus for this, and any corrective

                        actions, on the States. For example, the recommendation to

                        improve the match points between State and SAVE data is to us,

                        Principally, a responsibility of the INS and not the States. Our

                        comments on the speci.fi.c recommendations made in the Reports

                        reflect  our concern in this regard.

                        Regarding the recommendations contained in the “Review of the

                        SAVE System’s Processes,” we have the following comments:


                        RECOMMENDATION : The ACF and the Health Care Financing

                        Administration (HCFA) should remind States of the SAVE

                        requirements and suggest minimal documentation to be included in

                        the State case files.


                        RESPONSE:  The Immigration and Naturalization Service (INS) is
                        responsible for providing the States with the necessarY
                        instructions for operating the SAVE program to include  ~,n,rnal
Page 2 - June   Gibbs   Brown


documentation in the State case files. The INS should be

aware that the States require the latest and best information in

this regard in order to properly use the SAVE program.


RECOMMENDATION : The ACF and HCFA should coordinate with INS to

enhance the SAVE program to make it more timely and user

friendly.


RESPONSE: We have in the past and will in the future work with

INS to improve the SAVE program.


RECOMMENDATION : The ACF and HCFA should coordinate with the

States and the INS to identify the most efficient and effective

way to designate and implement matching points between their

respective data base systems.


RESPONSE:  In our opinion, the best way of improving the ability

to match State files with the SAVE database is for the INS to

make every effort to capture and include the social security

number in SAVE records.  It is our understanding that the SAVE

system is designed to store this information, but the INS is not

diligent in capturing and maintaining it. We would add that

making it easier in the future to determine the cost

effectiveness of SAVE is probably insufficient justification for

compelling the INS to do a better job of maintaining this

information.


If you have any questions concerning these comments, contact

Robert Shelbourne at (202) 401-5051 or Robert Laue at (202) 401-

5040.
